THE COMMONWEALTH OF MASSACHUSETTS
OFFICE OF THE ATTORNEY GENERAL
ONE ASHBURTON PLACE
BOSTON, MASSACHUSETTS 02108
(617) 727-2200
(617) 727-4765 TTY
www.mass.gov/ago
September 12, 2019
By Electronic Filing
Scott S. Harris
Clerk of the Court
Supreme Court of the United States
One First Street, N.E.
Washington, DC 20543-0001
Re:

Ben Branch et al. v. Massachusetts Department of Labor Relations et
al., No. 19-51 — Request for an Extension of Time

Dear Clerk Harris:
The Respondents in the above-referenced case have been asked by the Court
to file briefs in response to the petition for a writ of certiorari by September 23,
2019. Pursuant to Supreme Court Rule 30.4, we respectfully request that the time
allowed for the Respondents to file their briefs be extended by 60 days, up to and
including November 22, 2019. We have conferred with counsel for the Petitioners,
who indicated that they assent to this request.
Counsel representing the Massachusetts state agency Respondents—the
Massachusetts Department of Labor Relations and the Commonwealth
Employment Relations Board (“Massachusetts Respondents”)—states that this
request is based on the need for review within the Massachusetts Attorney
General’s Office and the extent of other professional obligations. A Court-requested
brief in response to a petition for a writ of certiorari is scrutinized closely in the
Attorney General’s Office. The brief in this case will be subject to multiple rounds
of evaluation and revision by various attorneys, all of which will require time.
While counsel is giving this matter priority status, counsel also has several
upcoming arguments and deadlines in other cases, and thus will need additional
time to prepare the brief in response to the petition for writ of certiorari.
Counsel representing Respondents Massachusetts Society of
Professors/MTA/NEA, Hanover Teachers Association/MTA/NEA, and Professional
Staff Union/MTA/NEA (“MTA/NEA Respondents”) joins in this request. The

Clerk Scott S. Harris
Re: No. 19-51
September 12, 2019
Page 2 of 2
MTA/NEA Respondents’ counsel has prioritized this case, but nevertheless requires
additional time to prepare the Court-requested brief and circulate it for review by
other attorneys within the MTA and NEA. Moreover, the attorneys with primary
responsibility for the brief have other obligations that have prevented them from
turning their full attention to this matter, which include briefing deadlines and an
oral argument in other cases, and a nationwide conference they are planning for
lawyers representing education associations, which is scheduled for mid-October.
Thank you for your consideration of this request.
Sincerely,

/s/ Timothy J. Casey
Timothy J. Casey
Assistant Attorney General
Office of the Attorney General of Mass.
Government Bureau
One Ashburton Place
Boston, MA 02108
(617) 963-2043
timothy.casey@mass.gov

/s/ Jeffrey W. Burritt
Jeffrey W. Burritt
Office of the General Counsel
National Education Association
1201 16th Street, N.W.
Washington, D.C. 20036
(202) 822-7231
jburritt@nea.org

Counsel for Massachusetts Respondents

Counsel for MTA/NEA Respondents

cc:

Counsel for the Petitioners:
Bruce Cameron, bnc@nrtw.org
(By electronic mail)

